APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 1, 2021) ........................... 1a
District Court of Tulsa County,
State of Oklahoma, Findings of Fact
and Conclusions of Law (November 12, 2020) ....... 12a
Stipulations
(October 5, 2020) .............................................. 18a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 21, 2020) .................................................... 20a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 1, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
MATTHEW STEVEN JANSON,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.
________________________
Case No. C-2017-1027
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS, Judge.,
Robert L. HUDSON, Judge.
OPINION
HUDSON JUDGE:
Petitioner, Matthew Steven Janson, was charged
in Tulsa County District Court, Case No. CF-20165428, with Count 1: Aggravated Possession of Child
Pornography, in violation of 21 O.S.2011, § 1040.12a;
and Count 2: Distribution of Child Pornography, in
violation of 21 O.S.2011, § 1021.2. Petitioner entered
a blind plea to the charges on February 27, 2017, before

App.2a
the Honorable Sharon Holmes, District Judge. The
trial court accepted Petitioner’s plea and deferred
sentencing pending the completion and filing of a presentence investigation report. On August 8, 2017,
Judge Holmes sentenced Petitioner to ten years
imprisonment each on Counts 1 and 2, to run concurrently, with the last five years suspended. Petitioner
must serve 85% of his sentences before becoming
eligible for parole consideration.
On August 15, 2017, Petitioner filed a motion to
withdraw his blind plea. A hearing on Petitioner’s
motion was held on September 7 and 27, 2017. After
hearing argument from counsel for both parties,
Judge Holmes denied Petitioner’s motion to withdraw
his plea. Petitioner now seeks a writ of certiorari.
In his sole proposition of error, Petitioner claims
the District Court lacked jurisdiction to accept his
plea. Petitioner argues that he is a citizen of the
Cherokee Nation and the crimes occurred within the
boundaries of the Creek Reservation. Pursuant to
McGirt v. Oklahoma, 140 S. Ct. 2452 (2020), Petitioner’s
claim raises two separate questions: (a) his Indian
status; and (b) whether the crimes occurred on the
Creek Reservation. These issues require fact-finding.
We therefore remanded this case to the District
Court of Tulsa County for an evidentiary hearing.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we requested
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Petitioner’s presentation
of prima facie evidence as to Petitioner’s legal status
as an Indian and as to the location of the crime in
Indian Country, the burden shifts to the State to prove

App.3a
it has jurisdiction. The District Court was ordered to
determine whether Petitioner has some Indian blood
and is recognized as an Indian by a tribe or the federal government. The District Court was further
ordered to determine whether the crimes in this case
occurred in Indian Country. In so doing, the District
Court was directed to consider any evidence the
parties provided, including but not limited to treaties,
statutes, maps, and/or testimony.
We also directed the District Court that in the
event the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties may enter into a written stipulation
setting forth those facts upon which they agree and
which answer the questions presented and provide
the stipulation to the District Court. The District
Court was also ordered to file written findings of
facts and conclusions of law with this Court.
A status hearing was held in this case before the
Honorable Tracy L. Priddy, District Judge. Thereafter,
a written findings of fact and conclusions of law was
timely filed with this Court. The record indicates
that appearing before the District Court on this
matter were attorneys from the Oklahoma Attorney
General’s Office, the Tulsa County District Attorney’s
Office and counsel for Petitioner.
In its written findings of fact and conclusion of
law, the District Court stated that the parties have
stipulated that Petitioner has 3/128 degree Cherokee
blood; that Petitioner is a member of the Cherokee
Nation and was so at the time of the charged crimes;
that the Cherokee Nation is an Indian Tribal Entity
recognized by the federal government; and the crimes
charged in this case occurred within the boundaries

App.4a
of the Creek Reservation. The District Court attached
as Exhibit 1 to its findings of facts and conclusions of
law a document entitled Stipulations signed by all
counsel reflecting these stipulations.
The District Court accepted and adopted the
stipulations made by the parties and concluded in its
findings of fact and conclusions of law that Petitioner
has some Indian blood, that he is also recognized as
an Indian by a tribe and the federal government and
therefore Petitioner is an Indian under federal law.
Finally, the District Court accepted the stipulation of
the parties that the crimes in this case occurred on
the Creek Reservation and, thus, found the crimes
occurred in Indian Country for purposes of federal
law.
On November 24, 2020, the State filed with this
Court a supplemental brief after remand. In its brief,
the State acknowledges the District Court accepted
the parties’ stipulations as discussed above and references the District Court’s findings. The State contends
in its brief that should this Court find Petitioner is
entitled to relief based on the District Court’s findings, this Court should stay any order reversing the
conviction for thirty (30) days so that the appropriate
authorities can review his case, determine whether it
is appropriate to file charges and take custody of
Petitioner. Cf. 22 O.S.2011, § 846.
After thorough consideration of this proposition
and the entire record before us on appeal including
the original record, transcripts and the briefs of the
parties, we find that under the law and evidence
relief is warranted. Based upon the record before us,
the District Court’s findings of fact and conclusions
of law are supported by the stipulations jointly made

App.5a
by the parties on remand. We therefore find Petitioner
has met his burden of establishing his status as an
Indian, having 3/128 degree Cherokee blood and being
a member of the Cherokee Nation. We further find
Petitioner met his burden of proving the crimes in
this case occurred on the Creek Reservation and,
thus, occurred in Indian Country.
Pursuant to McGirt, we find the State of Oklahoma
did not have jurisdiction to prosecute Petitioner in
this matter.1 The Judgment and Sentence in this
case is hereby reversed and the case remanded to the
District Court of Tulsa County with instructions to
dismiss the case.
DECISION
The Petition for Writ of Certiorari is GRANTED.
The Judgment and Sentence of the District Court is
REVERSED AND REMANDED WITH INSTRUCTIONS TO DISMISS. The MANDATE is not to be
issued until twenty (20) days from the delivery and
filing of this decision.2

1 I maintain my previously expressed views on the significance
of McGirt, its far-reaching impact on the criminal justice
system in Oklahoma and the need for a practical solution by
Congress. See Bosse v. State, 2021 OK CR 3, ___ P.3d ___
(Hudson, J., Concur in Results); Hogner v. State, 2021 OK CR 4,
___ P.3d ___ (Hudson, J., Specially Concurs); and Krafft v. State,
No. F-2018-340 (Okl. Cr., Feb. 25, 2021) (Hudson, J., Specially
Concurs) (unpublished).

2 By withholding issuance of the mandate for twenty days, the
State’s request for time to determine further prosecution is
rendered moot.

App.6a
AN APPEAL FROM THE DISTRICT COURT
OF TULSA COUNTY THE HONORABLE
TRACY L. PRIDDY, DISTRICT JUDGE
Appearances at Trial
Kevin D. Adams
Attorney at Law
417 West 7th Street
Suite 202
Tulsa, Ok 74119
Counsel for Defendant
Eric Grayless
First Asst. District Atty.
Tulsa County
500 South Denver Ave
Suite 900
Tulsa, Ok 74103
Counsel for the State
Mike Hunter
Okla. Attorney General
Jennifer Crabb
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, Ok 73105
Counsel for the State
Appearances on Appeal
Kevin D. Adams
Attorney at Law
417 West 7th Street
Suite 202
Tulsa, Ok 74119
Counsel for Petitioner

App.7a
Mike Hunter
Okla. Attorney General
Randall Young
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, Ok 73105
Counsel for Respondent
Opinion by: Hudson, J.
Kuehn, P.J.: Concur
Rowland, V.P.J.: Concur
Lumpkin, J.: Concur in Result
Lewis, J.: Specially Concur

App.8a
LUMPKIN, JUDGE
CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must
at a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded to do what an average citizen who had been
fully informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.9a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.

1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act (IRA)
in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white section with whom they would trade
and associate. I just cannot get through my mind
how this bill can possibly be made to operate in a
State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be
terminated.” (emphasis added).

App.10a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian
reservations in the state had been disestablished and
no longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect
to our Federal-State structure. I simply believe that
when reasonable minds differ they must both be
reviewing the totality of the law and facts.

App.11a
LEWIS, JUDGE,
CONCURRING IN RESULTS
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I concur in the decision
to dismiss this case for the lack of state jurisdiction.

App.12a
DISTRICT COURT OF TULSA COUNTY,
STATE OF OKLAHOMA, FINDINGS OF
FACT AND CONCLUSIONS OF LAW
(NOVEMBER 12, 2020)
IN THE DISTRICT COURT OF
TULSA COUNTY, STATE OF OKLAHOMA
________________________
MATTHEW STEVEN JANSON,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
Tulsa County District Court Case No. CF-2016-5428
Court of Criminal Appeals Case No. C-2017-1027
Before: Tracy L. PRIDDY, District Judge.
FINDINGS OF FACT
AND CONCLUSIONS OF LAW
This matter came on for a status conference on
October 5, 2020 pursuant to the remand order of the
Oklahoma Court of Criminal Appeals (“OCCA”) issued
August 21, 2020. Kevin Adams appeared on behalf of
Petitioner, Matthew Steven Janson, whose appearance
was waived. Assistant Attorney General Jennifer
Crabb appeared for Respondent. Tulsa County First
Assistant District Attorney Erik M. Grayless also

App.13a
appeared. An evidentiary hearing was not held pursuant to the parties’ announcement that they had
agreed and stipulated to facts supporting the issues
to be determined by this Court.
The Petitioner, in his sole proposition of error
claims the District Court lacked jurisdiction to accept
his plea as he is a citizen of the Cherokee Nation and
that his crime occurred within the boundaries of the
Creek Reservation. Petitioner’s claim raises two
questions: (a) his Indian status, and (b) whether the
crime occurred on the Creek Reservation. These
issues require fact-finding to be addressed by the
District Court per the OCCA Order Remanding.
I. Petitioner’s status as an Indian
To determine the Indian status of the Petitioner,
the OCCA directed the District Court to make findings
of fact as to whether (1) Petitioner has some Indian
blood, and (2) is recognized as an Indian by a tribe or
the federal government.1 The Court finds as follows:
Findings of Fact

1. Matthew Steven Janson is the named Defendant/Petitioner in the above-entitled matter.

2. The parties filed Stipulations on October 5,
2020 which incorrectly identifies Matthew Steven
Janson as Defendant/Appellant, but will be referred
to by this Court as Defendant/Petitioner.

1 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81(10th Cir. 2001).
Generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.

App.14a

3. The parties hereto stipulated and agreed that
Appellant [Petitioner] has 3/128 degree Cherokee
blood.2

4. The parties hereto stipulated and agreed that
Appellant [Petitioner] is, and was at the time of the
charged offenses, a member of the Cherokee Nation.3

5. The parties hereto stipulated and agreed that
the Cherokee Nation is an Indian Tribal Entity
recognized by the federal government.4
Conclusions of Law
Regarding the first determination, the Court
answers the first inquiry in the affirmative. The
Court adopted the Stipulation of the parties filed on
October 5, 2020 and made findings of fact thereon.
Matthew Steven Janson has 3/128 degree Cherokee
blood. Although the term “Indian” is not statutorily
defined and various terms such as “sufficient”5, “substantial”6, “significant percentage of” 7 or “some”8
have been used by courts in an attempt to define the
quantity of Indian blood required to satisfy this
inquiry, the OCCA mandate ordered this Court to
2 Exhibit 1, Stipulations 2a.
3 Exhibit 1, Stipulations 2b.
4 Exhibit 1, Stipulations 2c.
5 United States v. LaBuff, 658 F.3d 873, 874-75 (9th Cir. 2011)
6 Vialpando v. State, 640 P.2d 77, 79-80 (Wyo. 1982).
7 Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
8 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012).

App.15a
determine “whether the Petitioner has some Indian
blood.”9 Thus, according to the term used by the
OCCA in its Order, this Court concludes Matthew
Steven Janson has some Indian blood.
Additionally, the Court answers the second part
of the inquiry in the affirmative. The Court adopted
the Stipulations and made findings of fact thereon.
While there was no documentation or verification of
Matthew Steven Janson’s enrollment as a citizen of
the Cherokee Nation or the date thereof, based upon
the parties’ stipulations, this Court finds Matthew
Steven Janson was a member of the Cherokee Nation
at the time of the charged offenses. The Cherokee
Nation is an Indian Tribal Entity recognized by the
federal government. Therefore, Matthew Steven Janson
is recognized as an Indian by a tribe or the federal
government.
Having answered both inquiries in the affirmative,
this Court concludes Matthew Steven Janson is an
Indian.
II. Whether the Crime
Occurred on the Creek Reservation
The OCCA further ordered the District Court to
determine whether the crime occurred on the Creek
Reservation, referred to as Indian Country. 10 The
Court finds as follows:

9 Order Remanding for Evidentiary Hearing August 21, 2020.
10 McGirt v. Oklahoma, 140 S.Ct.2452 (2020); 18 U.S.C. §§ 1152,
1153.

App.16a
Findings of Fact

1. The parties hereto stipulated that the crime
in this case occurred at 5354 W. 2nd Street in Tulsa,
OK.11
2. The parties further stipulated that this address
is within the boundaries of the Muscogee (Creek)
Nation’s Reservation.12
Conclusions of Law
The final inquiry is answered in the affirmative.
This Court adopted the parties’ Stipulations and
made findings of fact thereon. The crime occurred at
a location identified by a specific address that is
within the boundaries of the Creek Reservation.
These boundaries were established through a series of
treaties between the Muscogee (Creek) Nation and
the United States Government, and are explicitly
recognized as a reservation defined by 18 U.S.C.
§ 1151(a). Based upon the Supreme Court’s ruling in
McGirt v. Oklahoma, 140 S. Ct. 2452, 207 L.Ed.2d
985 (2020), this Court concludes that the crime
occurred on the Creek Reservation which is Indian
Country.
WHEREFORE, this Court finds that Matthew
Steven Janson is an Indian and that the crime for
which he was convicted occurred in Indian Country
for purposes of the General Crimes Act, 18 U.S.C.
§ 1152 and the Major Crimes Act, 18 U.S.C. § 1153.

11 Exhibit 1, Stipulations 1a.
12 Exhibit 1, Stipulations 1a.

App.17a
IT IS SO ORDERED this 12th day of November,
2020.

/s/ Tracy L. Priddy
District Judge

App.18a
STIPULATIONS
(OCTOBER 5, 2020)
IN THE DISTRICT COURT OF TULSA
COUNTY, STATE OF OKLAHOMA
________________________
MATTHEW STEVEN JANSON,
Defendant/Appellant,
v.
THE STATE OF OKLAHOMA,
Plaintiff/Appellee.
________________________
Case No. CF-2016-5428, C-2017-1027
STIPULATIONS
In response to the questions this Court has been
directed to answer by the Court of Criminal Appeals,
the parties have reached the following stipulations:

1. As to the location of the crime, the parties
hereby stipulate and agree as follows:
a.

The crime in this case occurred at 5354 W.
2nd Street in Tulsa, Oklahoma. This address
is within the boundaries of the Muscogee
(Creek) Nation’s Reservation.

2. As to the status of Appellant, the parties
hereby stipulate and agree as follows:

App.19a

a.

Appellant has 3/128 degree Cherokee blood.

b.

Appellant is, and was at the time of the
charged offenses, a member of the Cherokee
Nation.

c.

The Cherokee Nation is an Indian Tribal
Entity recognized by the federal government.
Respectfully submitted,
/s/ Kevin Adams
Counsel for Appellant
/s/ Jennifer L. Crabb
Assistant Attorney General
/s/ Erik Greyless
Assistant District Attorney
Counsel for Appellee

App.20a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 21, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
MATTHEW STEVEN JANSON,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
Case No. C-2017-1027
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge.,
Robert L. HUDSON, Judge.,
Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Petitioner, Matthew Steven Janson, was charged
in Tulsa County District Court, Case No. CF-20165428, with Count 1: Aggravated Possession of Child
Pornography, in violation of 21 O.S.2011, § 1040.12a;
and Count 2: Distribution of Child Pornography, in

App.21a
violation of 21 O.S.2011, § 1021.2. Petitioner entered
a blind plea to the charges on February 27, 2017,
before the Honorable Sharon Holmes, District Judge.
The trial court accepted Petitioner’s plea and deferred
sentencing pending the completion and filing of a
presentence investigation report. On August 8, 2017,
Judge Holmes sentenced Petitioner to ten years
imprisonment each on Counts 1 and 2, to run concurrently, with the last five years suspended. Petitioner
must serve 85% of his sentences before becoming
eligible for parole consideration.
On August 15, 2017, Petitioner filed a motion to
withdraw his blind plea. A hearing on Petitioner’s
motion was held on September 7 and 27, 2017. After
hearing argument from counsel for both parties,
Judge Holmes denied Petitioner’s motion to withdraw
his plea. Petitioner now seeks a writ of certiorari.
In his sole proposition of error, Petitioner claims
the District Court lacked jurisdiction to accept his
plea. Petitioner argues that he is a citizen of the
Cherokee Nation and the crimes occurred within the
boundaries of the Creek Reservation.
Pursuant to McGirt v. Oklahoma, No. 18-9526
(U.S. July 9, 2020), Petitioner’s claim raises two separate questions: (a) his Indian status and (b) whether
the crimes occurred on the Creek Reservation. These
issues require fact-finding. We therefore REMAND
this case to the District Court of Tulsa County, for an
evidentiary hearing to be held within sixty (60) days
from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in

App.22a
coordination to effect uniformity and completeness in
the hearing process. Upon Petitioner’s presentation
of prima facie evidence as to the Petitioner’s legal
status as an Indian and as to the location of the
crimes in Indian Country, the burden shifts to the
State to prove it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues.
First, the Petitioner’s status as an Indian. The
District Court must determine whether (1) Petitioner
has some Indian blood, and (2) is recognized as an
Indian by a tribe or the federal government.1
Second, whether the crimes occurred on the Creek
Reservation. In making this determination the District Court should consider any evidence the parties
provide, including but not limited to treaties, statutes,
maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Petitioner, within five (5)
1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).

App.23a
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Tulsa County:
Petitioner’s Brief in Chief, filed December 22, 2017.
The present order renders MOOT any request made
to date for supplemental briefing by either party in
this case as well as any request to file an amicus
brief.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 21st day of August, 2020.

App.24a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

